CERTIFICATE OF COMPLIANCE WITH TYPE-VOLUME LIMITATIONS,
TYPEFACE REQUIREMENTS AND TYPE STYLE REQUIREMENTS
1. The Document complies with the type-volume limitations of Fed. R. App.
P.32(a)(7)(b) because this document contains 1754 words, excluding the parts of the
document exempted by Fed, R. App. 32(a)(7)(b)(iii).
2. The Document complies with the typeface requirements of Fed. R. App.
P.32(a)(5) and the type style requirements of Fed. R. App. P. 32(a)(6) because the
document has been prepared in proportionally space typeface using Century
Schoolbook 12 Pt. font.
Dated March 12, 2020

James Leonard Hines
Pro Se for Petitioner

